                    Procedures to Collect Outstanding
                  Emergency Salary Payments Need to Be
                             Implemented

                                     June 2004

                       Reference Number: 2004-10-113




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                            June 8, 2004


       MEMORANDUM FOR THE CHIEF FINANCIAL OFFICER


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report – Procedures to Collect Outstanding
                              Emergency Salary Payments Need to Be Implemented
                              (Audit # 200310023)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       collection of outstanding emergency salary payments. The overall objective of this
       review was to determine whether the IRS took adequate steps to resolve outstanding
       emergency salary payments and established adequate procedures to account for them.
       In summary, employees can receive emergency salary payments if their salary check
       was lost, stolen, mutilated, or not delivered by mail, or if the salary payment was not
       issued due to problems with the processing of their time and attendance. The
       emergency salary payment must be repaid when a second payment is processed by the
       issuance of a recertified salary check or adjustment to the employee’s time and
       attendance. The IRS reported that 616 emergency salary payments were issued for
       $373,000 in Fiscal Year 2003.
       The IRS has taken steps to research and resolve the backlog of outstanding emergency
       salary payments that were issued between 1991 and 2003. Steps have also been
       taken to develop new procedures for documenting and collecting emergency salary
       payments. However, there has been a significant delay in the implementation of the
       use of collection tools on the outstanding debts of current employees. This delay is due
       to negotiations with the National Treasury Employees Union that have been in progress
       since June 2002. We have recommended that the Chief Financial Officer (CFO)
                                                    2

promptly implement all of the applicable procedures required by the Federal Claims
Collections Standards (FCCS)1 in another TIGTA report.2
Management’s Response: IRS management agreed with the facts and analysis in the
report. However, the CFO disagreed with our assessment of the delay in implementing
the FCCS. The CFO stated that the Labor Relations staff has advised IRS
management that aggressive pursuit of debt collection without negotiating
implementation with the National Treasury Employees Union (NTEU) would result in an
Unfair Labor Practice. Management is validating that advice through the IRS’ Associate
Chief Counsel (General Legal Services) office. Management has developed debt
collection policies and procedures and coordinated them with all business units.
Management’s complete response to the draft report is included as Appendix IV.
Office of Audit Comment: We believe delaying some collection actions pending
completion of negotiations with the NTEU is unnecessary. It has been 8 years since the
Debt Collection Improvement Act of 19963 became law. The IRS should have
implemented procedures to comply with the law long before now. Moreover, the current
negotiations with the NTEU to obtain formal agreement over these procedures have
taken over 11 months, which does not appear reasonable based on the scope of the
proposed procedures.
Copies of this report are also being sent to the IRS managers affected by the report
findings. Please contact me at (202) 622-6510 if you have questions or Daniel R.
Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




1
  31 C.F.R. Parts 900 – 904 (2003).
2
  Improvements Are Needed to Ensure Relocation Advances Are Timely Repaid (Reference Number 2004-10-092,
dated May 2004).
3
  Pub. L. No. 104-134 (1982).
                             Procedures to Collect Outstanding Emergency
                               Salary Payments Need to Be Implemented




                                              Table of Contents


Background .............................................................................................. Page   1
Steps Are Being Taken to Update Accounting Records and Write-off
Uncollectible Emergency Salary Payments .............................................. Page                      2
Procedures to Collect Outstanding Emergency Salary Payments
Need to Be Implemented.......................................................................... Page            3
Appendix I – Detailed Objective, Scope, and Methodology ...................... Page                              7
Appendix II – Major Contributors to This Report....................................... Page                      9
Appendix III – Report Distribution List ...................................................... Page 10
Appendix IV – Management’s Response to the Draft Report ................... Page 11
             Procedures to Collect Outstanding Emergency
               Salary Payments Need to Be Implemented

                        Employees may receive emergency salary payments if their
Background
                        salary check was lost, stolen, mutilated, or not delivered by
                        mail, or if the salary payment was not issued due to
                        problems with the processing of their time and attendance.
                        The Internal Revenue Service (IRS) reported that
                        616 emergency salary payments were issued for $373,000 in
                        Fiscal Year (FY) 2003.
                        To request an emergency salary payment, an employee must
                        complete an Application for Emergency Salary/Recertified
                        Payment (Form 3525). An IRS designated agent performs
                        research to determine why the employee did not receive
                        payment and calculates the amount of the employee’s net
                        pay for the emergency salary payment. The employee’s
                        manager must then approve the Form 3525 before a cashier
                        can issue the emergency salary payment from the Small
                        Purchases Imprest Fund. The cashier sends a copy of the
                        Form 3525 to the IRS Beckley Finance Center where it is
                        recorded in the Automated Financial System.1
                        If the emergency salary payment was provided due to a
                        problem with a salary check sent by mail, a recertified
                        salary check is issued and sent to the IRS designated agent.
                        After the designated agent sends the payment to the Beckley
                        Finance Center, the employee’s debt is satisfied.
                        If the emergency salary payment was issued because no
                        salary payment was made to the employee, the employee’s
                        timekeeper corrects the time and attendance and the
                        employee is issued a second salary payment. The employee
                        must then repay the emergency salary payment. The
                        outstanding emergency salary payment is considered due
                        and payable when the employee receives the second
                        payment. The debt is considered delinquent if it has not
                        been repaid within 30 days of a letter requesting repayment.
                        This review was performed at the IRS National
                        Headquarters in the Office of the Chief Financial Officer;
                        Transactional Processing Operations Division, Agency-
                        Wide Shared Services; and the Beckley Finance Center
                        in Beckley, West Virginia, during the period June through
                        December 2003. The audit was conducted in accordance

                        1
                          A computer-based financial accounting system used by the IRS to
                        track appropriations and expenditures.
                                                                                      Page 1
                        Procedures to Collect Outstanding Emergency
                          Salary Payments Need to Be Implemented

                                   with Government Auditing Standards. Detailed information
                                   on our audit objective, scope, and methodology is presented
                                   in Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The IRS did not have adequate procedures to collect
Steps Are Being Taken to Update
                                   outstanding amounts due once employees received their
Accounting Records and Write-
                                   actual salary payment. Furthermore, in some instances,
off Uncollectible Emergency
                                   either the designated agent did not request reissuance of the
Salary Payments
                                   salary check or the IRS financial systems were not properly
                                   updated when the emergency salary payment was repaid.
                                   An accumulation of outstanding emergency salary payments
                                   developed which included outstanding amounts from as far
                                   back as 1987.
                                   Prior to the reorganization in 1999, the IRS had four
                                   regional offices that were responsible for managing
                                   programs and major functions within their geographic
                                   jurisdictions. This included accounting for emergency
                                   salary payments. As part of the reorganization, the regional
                                   offices were eliminated and many of the accounting
                                   functions and records were centralized. The Beckley
                                   Finance Center subsequently became responsible to account
                                   for emergency salary payments and to ensure repayment.
                                   Recognizing the problem of the long outstanding amounts,
                                   in 2002 the Beckley Finance Center began to review the
                                   documentation needed to verify and collect the amounts. To
                                   assist in the effort to resolve emergency salary payments,
                                   additional personnel from the Transactional Processing
                                   Operations Division were assigned in June 2003. The
                                   objective was to determine whether the employees received
                                   the funds to repay the emergency salary payments and
                                   whether the emergency salary payments were collectible.
                                   We reviewed a judgmental sample of 30 (totaling $18,600)
                                   of the 292 emergency salary payments that were classified
                                   as resolved by Beckley Finance Center or Transactional
                                   Processing Operations Division personnel. There was
                                   adequate documentation to support the actions that were
                                   taken to resolve the emergency salary payments. This
                                   included copies of the recertified salary checks or personal
                                   checks that were used to repay the emergency salary
                                   payments.

                                                                                         Page 2
                       Procedures to Collect Outstanding Emergency
                         Salary Payments Need to Be Implemented

                                  During the review of the accounts by the Beckley Finance
                                  Center, it became apparent that many of the amounts were
                                  past the applicable statute of limitations for collection of the
                                  debt, or the documents needed to confirm the request for the
                                  emergency salary payment were missing. The Beckley
                                  Finance Center had difficulty obtaining these documents
                                  which would have been filed at the regional accounting
                                  offices prior to the IRS reorganization.
                                  In FY 2003, the IRS took action to write off or establish
                                  accounts receivable on 259 emergency salary payments
                                  totaling $111,600. The emergency salary payments were
                                  issued between 1991 and 2003. Of the total debt,
                                  approximately $17,800 could not be collected because the
                                  10-year statute of limitations had expired; $35,200 was
                                  written off for other reasons such as the lack of
                                  documentation to substantiate the debt or because it would
                                  cost more to pursue the debt than the amount that could be
                                  collected. Approximately $58,600 in emergency salary
                                  payments was converted to accounts receivable.
                                  We reviewed a judgmental sample of 30 (totaling $11,500)
                                  of the emergency salary payments that were written off or
                                  converted to accounts receivable in FY 2003. Thirteen
                                  emergency salary payments were written off – 12 for lack of
                                  documentation and 1 because of the low dollar amount. Of
                                  the 12 that were written off for lack of documentation, we
                                  confirmed the cases met the Federal Claims Collection
                                  Standards2 criteria for write off; there was no documentation
                                  to support the debt. Of the remaining 17 cases, the
                                  emergency salary payments were converted to accounts
                                  receivable.
                                  The Office of Management and Budget has directed
Procedures to Collect
                                  agencies to have a fair but aggressive program to recover
Outstanding Emergency Salary
                                  delinquent debt. The Debt Collection Act of 1982,3 the
Payments Need to Be
                                  Debt Collection Improvement Act of 1996,4 and the Federal
Implemented
                                  Claims Collection Standards provide agencies with
                                  collection tools including:


                                  2
                                    31 C.F.R. Parts 900 – 904 (2003).
                                  3
                                    Pub. L. No. 97-365 (1996).
                                  4
                                    Pub. L. No. 104-134 (1982).

                                                                                           Page 3
Procedures to Collect Outstanding Emergency
  Salary Payments Need to Be Implemented

               •    The issuance of follow-up letters demanding
                    payment.
               •    Salary offset by agencies.
               •    The referral of debts to the Department of the
                    Treasury’s Debt Management Services for offset
                    against Federal payments due the employee or
                    former employee when the debts have been
                    delinquent for 180 days.5
           To address problems with the documentation and collection
           of emergency salary payments, the Beckley Finance Center
           established procedures that include instructions for:
               •    Submitting the Forms 3525 to the Beckley Finance
                    Center.
               •    Following up on emergency salary payments that
                    have not been repaid.
               •    Establishing accounts receivable if emergency salary
                    payments are not repaid.
               •    Maintaining documentation on emergency salary
                    payments.
           The Transactional Processing Operations Division is
           developing procedures to provide guidance and consistency
           on the responsibilities of the designated agent. The
           procedures will document the designated agent’s
           responsibility for taking various steps for repayment of
           emergency salary payments including requesting recertified
           salary checks, advising employees that the emergency salary
           payment must be repaid, and submitting the recertified
           salary checks to the Beckley Finance Center.
           If the Beckley Finance Center and Transactional Processing
           Operations Division effectively implement these
           procedures, they should ensure that emergency salary
           payments are adequately controlled and timely follow-up
           action is taken to resolve amounts that are not repaid.




           5
            A debt is delinquent if it is not paid by the date specified in the initial
           written demand for payment (generally 30 days).
                                                                                Page 4
Procedures to Collect Outstanding Emergency
  Salary Payments Need to Be Implemented

           The IRS is postponing collection action on current
           employees
           To determine whether the IRS is taking appropriate action to
           collect outstanding amounts, we reviewed a judgmental
           sample of 30 (totaling $15,400) of the 288 outstanding
           emergency salary payments that were still within the statute
           of limitation for collection. Our review indicated that some
           actions were taken to resolve these emergency salary
           payments including:
              •   Issuance of initial letters notifying employees of
                  their debt and obligation to repay it.
              •   Research to determine whether recertified salary
                  checks were issued.
              •   Research to locate missing Forms 3525.
           However, further collection actions were needed on 10 of
           the 30 emergency salary payments. For these emergency
           salary payments that involved current employees, the IRS
           did not take the appropriate additional steps, such as issuing
           follow-up demand letters, to collect the $4,300 that was due.
           This included five cases in which the employees agreed to
           pay the amounts due in installments after receiving the
           initial letter, but did not make the payments timely or at all,
           and five cases where the employees did not respond to the
           initial letter with a payment. There was no indication the
           IRS took further action to collect these debts. On the
           remaining 20 emergency salary payments, either the
           payment was not yet due or the IRS was taking additional
           actions to resolve issues such as the employee’s dispute of
           the debt, the lack of documentation to substantiate the debt,
           or the need to issue a recertified salary check.
           The IRS has advised us it is postponing any use of the
           appropriate collection tools to resolve the outstanding
           emergency salary payments of current employees until
           negotiation with the National Treasury Employees
           Union (NTEU) can be completed. As such, the IRS has
           only issued initial letters to notify employees of their debt.
           The IRS has been negotiating with the NTEU since
           June 2002 on the implementation of debt collection
           procedures for current employees. The IRS provided a
           document to the NTEU in April 2003 detailing the actions
                                                                    Page 5
Procedures to Collect Outstanding Emergency
  Salary Payments Need to Be Implemented

           the IRS planned to take to collect the amounts owed by
           current employees and charge interest, penalty, and
           administrative costs on these debts. Management has
           advised us that they have now reached an agreement with
           the NTEU but are still waiting for a letter of understanding
           to be signed.
           We believe this delay and additional negotiations were
           unnecessary. As reflected in the National Agreement,6 the
           IRS and NTEU negotiated employee debt collection issues.
           As a result, the IRS is not required to negotiate any
           additional debt collection procedures at this time and should
           implement the statutory and regulatory debt collection
           procedures as soon as practicable.
           We have recommended the Chief Financial Officer
           promptly implement all of the applicable procedures
           required by the Federal Claims Collections Standards in
           another TIGTA report.7 Therefore, no recommendation is
           included in this report.




           6
             The current National Agreement between the IRS and the NTEU
           became effective on July 1, 2002, and ends June 30, 2006.
           7
             Improvements Are Needed to Ensure Relocation Advances Are Timely
           Repaid (Reference Number 2004-10-092, dated May 2004).




                                                                      Page 6
                             Procedures to Collect Outstanding Emergency
                               Salary Payments Need to Be Implemented

                                                                                                     Appendix I


                            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) took adequate steps to resolve outstanding emergency salary payments and established
adequate procedures to account for them.
To accomplish this objective, we:

      I.       Determined whether the efforts to resolve outstanding emergency salary payments
               were adequate.
               A. Obtained the Report of Outstanding Emergency Salary Payments from the
                  Automated Financial System (AFS)1 used by members of the Transactional
                  Processing Operations Division, Agency-Wide Shared Services (AWSS), and
                  identified the number of outstanding emergency salary payments to be resolved.
               B. Determined the methodology used to collect or resolve the outstanding emergency
                  salary payments.
               C. Reviewed a judgmental sample of 30 of the 292 emergency salary payments that
                  were resolved as of July 11, 2003, to determine whether the supporting
                  documentation was adequate. This judgmental sample was selected to help
                  evaluate the adequacy of the process for resolving accounts; we did not intend to
                  use the results as a basis for estimating the percentage or value of all accounts for
                  which the documentation was adequate.
               D. Interviewed members of the Transactional Processing Operations Division,
                  AWSS, who were responsible for resolving outstanding emergency salary
                  payments.
               E. Reviewed a judgmental sample of 30 of the 288 emergency salary payments
                  outstanding as of July 11, 2003, and determined the reasons that amounts were
                  still outstanding and whether the actions taken to resolve the accounts were
                  appropriate. This judgmental sample was selected to help evaluate the adequacy
                  of the process for resolving accounts; we did not intend to use the results as a
                  basis for estimating the percentage or value of all accounts for which additional
                  action is needed to collect or otherwise resolve the accounts.
               F. Reviewed a judgmental sample of 30 of the 259 emergency salary payments that
                  were removed from the outstanding emergency salary payment account in Fiscal
                  Year 2003 and evaluated whether the reasons met established criteria. This


1
    A computer-based financial accounting system used by the IRS to track appropriations and expenditures.
                                                                                                             Page 7
                 Procedures to Collect Outstanding Emergency
                   Salary Payments Need to Be Implemented

         judgmental sample was selected to help evaluate the adequacy of the process for
         resolving accounts; we did not intend to use the results as a basis for estimating
         the percentage or value of all accounts that met established criteria for write off.
II.   Determined whether adequate procedures were established to account for outstanding
      emergency salary payments.
      A. Reviewed and evaluated the new procedures for distributing and reporting
         emergency salary payments that are being developed for the designated agents.
      B. Reviewed and evaluated the new procedures for collecting outstanding emergency
         salary payments.
      C. Reviewed and evaluated the new procedures being developed by the Beckley
         Finance Center for the accurate accounting for outstanding emergency salary
         payments on the AFS.
      D. Interviewed members of the Transactional Processing Operations Division,
         AWSS.
      E. Interviewed members of the Administrative Accounting Branch, Beckley Finance
         Center.




                                                                                       Page 8
                     Procedures to Collect Outstanding Emergency
                       Salary Payments Need to Be Implemented

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Audit Manager
William A. Floyd, Senior Auditor
Albert M. Sleeva, Senior Auditor
Robert L. Weiss, Senior Auditor
Frank I. Maletta, Auditor




                                                                                      Page 9
                     Procedures to Collect Outstanding Emergency
                       Salary Payments Need to Be Implemented

                                                                   Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Agency-Wide Shared Services OS:A




                                                                        Page 10
Procedures to Collect Outstanding Emergency
  Salary Payments Need to Be Implemented

                                              Appendix IV
Management’s Response to the Draft Report




                                                   Page 11
